TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Statistical Portrayal of the
                       Criminal Investigation Function’s
                         Enforcement Activities From
                  Fiscal Year 2000 Through Fiscal Year 2005



                                              May 2006

                              Reference Number: 2006-10-074




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  May 12, 2006


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Statistical Portrayal of the Criminal Investigation
                               Function’s Enforcement Activities From Fiscal Year 2000 Through
                               Fiscal Year 2005 (Audit # 200610006)

 This report presents the results of our review of statistical information that reflects activities of
 the Criminal Investigation (CI) function. The overall objective of this review was to provide
 statistical information on the CI function’s enforcement activities and trend analyses of that
 information.

 Synopsis
 The CI function performance measures and business results showed improvements from Fiscal
 Year (FY) 2003. Specifically, the total number of subject investigations1 completed and
 prosecution referrals increased; the number of indictments, convictions, and sentences increased;
 and the number of investigations in the Department of Justice pipeline increased. Several
 indicators continued to show improvements from FY 2004. While the number of subject
 investigations completed decreased slightly, FY 2005 showed gains in the total numbers of
 subject investigations initiated, Department of Justice pipeline investigations, convictions, and
 sentences and in the percentage of direct investigative time.
 The CI function reported an increase in total special agent staffing2 from FYs 2000 through
 2005; however, field office special agent staffing declined during this time. Increasing special
 agent staffing remains a challenge as the CI function continues to lose experienced special agents


 1
  A Glossary of Terms is included in Appendix IV.
 2
  Includes new recruits, part-time special agents, field and Headquarters office managers and program analysts, and
 Lead Development Center and Fraud Detection Center special agents.
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2005


to attrition faster than it can replace them. We are concerned this trend may adversely affect the
current levels of and improvements in productivity the CI function has recently experienced.
About 2 years ago, the Senate Finance Committee expressed concerns about the CI function’s
ability to increase legal source income tax investigations, the length of time it takes to refer a
case for prosecution, and the number of investigations per special agent. Criminal enforcement
indicators in the legal source and tax-related program areas showed improvements in FYs 2004
and 2005. Further, the total inventory per special agent increased to 8.53 in FY 2005, the highest
level since FY 2001. In addition, the elapsed time to recommend a case for prosecution
remained at nearly the same level since FY 2003, and the length of time to discontinue a case
slightly increased since FY 2003. The CI function continues to emphasize cycle-time
improvements and has established a benchmark range for the completion of legal and illegal
source investigations.
Refund fraud, and how the Internal Revenue Service (IRS) combats it, is another concern of
Congress and the National Taxpayer Advocate. Since Processing Year 2003, the number of
fraudulent returns detected by the CI function’s Questionable Refund Program increased
36.2 percent, and the total amount of fraudulent refunds stopped increased 53.8 percent. Further,
our limited-scope review of refund fraud committed by Federal and State prisoners, which has
grown significantly in recent years, showed inaccurate and missing information prevented the
IRS from detecting all fraudulent refund returns filed by prisoners.3 The IRS Commissioner has
initiated an internal review of the Questionable Refund Program to address, among other things,
concerns that taxpayers whose refunds are frozen are not always notified. We are also
conducting a review of this Program.4
The CI function initiates investigations from many different sources, both from within and
outside the IRS. During FY 2005, about 53.1 percent of
subject investigations initiated came from the United
States Attorneys’ Offices or other Government agencies, a      Criminal enforcement indicators
                                                                    in the legal source and
percentage that is trending downward from prior years. In      tax-related program areas show
contrast, about 36.2 percent of subject investigations          improvement; however, refund
initiated came from within the IRS, a percentage that is           fraud remains a concern.
trending upward from prior years. Historically, internal
IRS programs have been the primary sources of
investigations involving pure tax violations. Between FYs 2000 and 2005, almost 64.2 percent
of legal source investigations came from within the IRS. During
FY 2005, 71.0 percent of legal source investigations and 50.9 percent of tax-related
investigations came from internal IRS sources. On the other hand, more than one-half of the

3
  The Internal Revenue Service Needs to Do More to Stop the Millions of Dollars in Fraudulent Refunds Paid to
Prisoners (Reference Number 2005-10-164, dated September 2005).
4
  Review of the Criminal Investigation Function’s Questionable Refund Program (Audit # 200610003).
                                                                                                                2
                  Statistical Portrayal of the Criminal Investigation Function’s
                    Enforcement Activities From Fiscal Year 2000 Through
                                         Fiscal Year 2005


cases initiated from the United States Attorneys’ Offices and other Government agencies were
nontax-related, which continues to create a challenge for the CI function in maintaining a proper
balance with its stated priorities of legal source and tax-related investigations.

Recommendations
We made no recommendations in this report. However, key CI function management officials
reviewed the report and provided written comments to add perspective on areas such as the
Questionable Refund Program to make it more informative to the reader. In addition, we
considered the CI function’s comments and made corrections to the figures where appropriate.
Management’s complete response to the discussion draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report information.
Please contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant
Inspector General for Audit (Headquarters Operations and Exempt Organizations), at
(202) 622-5800.




                                                                                                    3
                         Statistical Portrayal of the Criminal Investigation Function’s
                           Enforcement Activities From Fiscal Year 2000 Through
                                                Fiscal Year 2005




                                             Table of Contents

Background ..........................................................................................................Page 1
Results of Review ...............................................................................................Page 3
          Several Performance Indicators Continued to Show Improvements in
          Fiscal Years 2004 and 2005 ................................................................. Page 3
          Challenges Remain to Increase Special Agent Staffing ..............................Page 5
          Congressional Interest in Criminal Investigation Activities.........................Page 5
          Investigations Initiated From External Sources............................................Page 8

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Glossary of Terms................................................................Page 14
          Appendix V – Detailed Charts of Statistical Information………………….Page 17
          Appendix VI – Management’s Response to the Discussion
          Draft Report ..................................................................................................Page 37
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2005




                                            Background

In recent years, the Internal Revenue Service (IRS) has made tremendous efforts to improve
customer service and make it easier for taxpayers to comply with their tax obligations. However,
in 1999, overall enforcement activities began to erode, and a survey conducted in 2003 indicated
that 17 percent of the population believed it was acceptable to cheat on their taxes. Since then,
the IRS Commissioner has emphasized the role and importance of tax enforcement in overall tax
compliance by recognizing the need to enhance levels of enforcement activity to provide a
proper balance between service and enforcement.
The IRS Strategic Plan for Fiscal Years (FY) 2005 to 2009 provides that enforcing tax
compliance is critical to maintaining the American taxpayers’ expectation that the tax system is
fair. It also outlines several objectives to meet the goal of enhanced enforcement, including
discouraging and deterring noncompliance with emphasis on corrosive activity by corporations,
high-income individual taxpayers, and other contributors to the tax gap (the difference between
taxes owed and paid).
The Criminal Investigation (CI) function is the only law enforcement organization with the
authority to investigate criminal tax violations. The vigorous enforcement of criminal statutes
within the CI function’s jurisdiction is an integral component of the IRS’ efforts to enhance
voluntary compliance and foster confidence in the fairness and integrity of the tax system.
Over the last few decades, Congress and the Department of the Treasury have expanded the CI
function’s jurisdiction to also cover offenses under money laundering and currency reporting
statutes.1 Accordingly, the CI function has been involved with both legal and illegal source
income investigations, including those involving organized crime and narcotics.
In April 1999, Judge William Webster issued a report2 from his review of the CI function’s
operations and concluded the CI function had drifted away from its primary mission of
investigating criminal violations of the Internal Revenue Code. Judge Webster recommended
the CI function refocus on its primary mission of investigating criminal violations of the internal
revenue laws.
The CI function addressed many of the Webster Report concerns by creating a revised mission
statement, developing a compliance strategy designed to guide the CI function to develop and
investigate cases that foster confidence in the tax system, reducing the resources placed on


1
  18 United States Code (U.S.C.) Sections (§§) 1956 and 1957 (2004) and Title 31 U.S.C., Money and Finance,
sections.
2
  Review of the Internal Revenue Service’s Criminal Investigation Division (Publication 3388; 4-1999), also known
as the Webster Report.
                                                                                                          Page 1
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2005



narcotics investigations, publicizing the results of its investigations, and conducting an empirical
study to determine the effect investigations have on voluntary compliance. CI function
executives continue to emphasize the importance of developing and investigating those cases that
have the greatest effect on tax administration, regardless of whether the sources of income in
those investigations are derived from legal or illegal industries.
We initiated this review as part of the Treasury Inspector General for Tax Administration’s
(TIGTA) FY 2006 Annual Audit Plan. While our trend analyses covered FYs 2000 through
2005, our report concentrates on providing a perspective for the 2 most current fiscal years.
Our data analyses were conducted in the TIGTA Chicago, Illinois, office during the period
December 2005 through February 2006 using data accumulated by the CI function. The audit
was conducted in accordance with Government Auditing Standards. However, because we relied
on information accumulated by the CI function in established reports, we did not verify the
accuracy of the data. Much of the data in this report were updated from the prior TIGTA report
on the CI function’s enforcement activity trends.3 Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II. A Glossary of Terms is included in Appendix IV. Detailed charts and tables
referred to in the body of the report are included in Appendix V.




3
 Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities From Fiscal Year 1999
Through Fiscal Year 2004 (Reference Number 2005-10-081, dated May 2005).
                                                                                                          Page 2
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2005




                                      Results of Review

Several Performance Indicators Continued to Show Improvements in
Fiscal Years 2004 and 2005
We previously reported4 that many of the performance indicators showed improvements from
FY 2003. For example, in FY 2004, the total number of subject investigations completed and
prosecution referrals increased; the number of indictments, convictions, and sentences increased;
and the number of investigations in the Department of Justice (DOJ) pipeline increased.5
Although the number of subject investigations completed decreased by 6.5 percent between
FYs 2004 and 2005,6 several of the trends showed improvements from FY 2004. For example,
the number of subject investigations initiated increased 9.0 percent, the percentage of direct
investigative time (DIT) increased slightly, the number of subjects convicted of a crime
increased 7.1 percent, and the number of subjects sentenced for a crime increased 17.9 percent.7
In addition, the number of investigations in the DOJ pipeline increased 5.9 percent and is at a
6-year high.8 The CI function Office of Strategy recently completed a review of the aging of
pipeline inventory and selected those judicial districts with the largest increases in pipeline
investigations to identify a cause. The study concluded that the United States Attorneys’ Offices
(USAO) operational priorities are not optimally aligned with the CI function’s priorities. The CI
function indicated the timely resolution of these pipeline investigations will remain a challenge.
We also are concerned that a continuing expansion of the pipeline inventory will result in more
DIT being spent preparing these investigations for trial or adjudication, which may result in
fewer new investigations and thus affect future productivity levels.
Also, while the average number of calendar days to discontinue an investigation improved from
FY 2004 to FY 2005 (down 5.1 percent), the average number of calendar days to refer an
investigation for prosecution increased 5.2 percent during the same period.9 This increase may
be attributed to the CI function working more investigations directly relating to tax
administration, which generally take longer to complete than nontax-related narcotics
investigations.


4
  Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities From Fiscal Year 1999
Through 2004 (Reference Number 2005-10-081, dated May 2005).
5
  See Appendix V, Figures 15, 25, 23, and 22.
6
  See Appendix V, Figure 15.
7
  See Appendix V, Figures 4, 2, and 23.
8
  See Appendix V, Figure 21.
9
  See Appendix V, Figure 16.
                                                                                                           Page 3
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2005



Collectively, these indicators demonstrate that the CI function is effectively improving the
discharge of its investigative responsibilities and mission. We believe this is attributable to the
Commissioner’s and CI function management’s continued emphasis on improving productivity
and enforcing the tax laws.

Introduction of new performance measures
During FY 2005, the Office of Management and Budget (OMB) reviewed the CI function’s
program. The Program Assessment Rating Tool is used to evaluate a program’s effectiveness,
and ratings can be used as a basis for future funding. The CI function received a rating of
moderately effective and indicated it is among the highest ratings achieved by any Federal
Government law enforcement agency.
During this review, the Department of the Treasury, the OMB, and the CI function jointly
determined that the measure of completed investigations was insufficient to measure program
effectiveness. The Department of the Treasury and the OMB requested the development of new
measures to reflect efficiency and a return on investment. As a result, the CI function introduced
three new annual performance measures: the number of convictions (a measure of impact on
compliance), the conviction rate (a measure of the quality of investigations), and conviction
efficiency (a measure of cost efficiency).
The CI function’s goal is to increase the number of convictions by at least 2.0 percent each year.
The CI function actually reported a 7.1 percent increase in convictions over FY 2004. According
to the FY 2005 Business Performance Review document, the CI function projected a total of
2,260 convictions in FY 2006, about a 5.0 percent increase over FY 2005. In addition, the CI
function’s long-term goal is to maintain or increase the conviction rate through FY 2009. The
conviction rate in FY 2005 was 91.2 percent and is projected to be 92.0 percent in FY 2006.
We previously reported10 that the CI function’s performance measure of cases initiated, later
changed to cases completed, was not outcome oriented and did little to quantify program results.
We are encouraged by the introduction of the new measures and believe these measures and the
CI function’s diagnostic tools (open inventory, acceptance rates, etc.) provide a more balanced
picture of the CI function’s overall performance. We also believe the CI function should
continue to consider additional measures that would demonstrate its effectiveness and impact on
tax compliance, possibly expressed in monetary terms or rates of future compliance with tax
laws.




10
  GPRA: Criminal Investigation Can Improve Its Performance Measures to Better Account for Its Results
(Reference Number 2002-10-009, dated January 2002). Government Performance and Results Act of 1993,
Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
This Act requires Federal Government agencies to establish standards for measuring performance and effectiveness.
                                                                                                            Page 4
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2005



Challenges Remain to Increase Special Agent Staffing
Between FYs 2000 and 2005, total special agent staffing11 increased 3.3 percent, from 2,734 to
2,823, although staffing levels remained nearly the same from FYs 2003 to 2005. Meanwhile,
field office special agent staffing declined 3.9 percent, from 2,513 to 2,416 between FYs 2000
and 2005.12 The decrease in field office special agent staffing was more noticeable in recent
years, with a 5.0 percent decline from FYs 2003 to 2005. Despite this more recent decline, since
FY 2003, the CI function has reported an increase in the number of subject investigations
initiated and total inventory per field agent.13
While these statistics represent an increase in productivity, increasing special agent staffing
remains a challenge as the CI function continues to lose experienced special agents to attrition
faster than it can replace them. According to its most recent estimates, the CI function expects to
lose about 160 special agents and 170 special agents in FYs 2006 and 2007, respectively, while
hiring only about 48 special agents during each of those years. We are concerned this trend may
adversely affect the current levels of and improvements in productivity the CI function has
recently experienced. We were advised by CI function management that they recently received
assistance that will allow them to increase the anticipated FY 2006 special agent hiring to about
120. In addition, the CI function projects hiring about 120 special agents in FY 2007.

Congressional Interest in Criminal Investigation Activities
About 2 years ago, the Senate Finance Committee expressed concerns about the CI function’s
productivity and its ability to increase the number of legal source income tax investigations. In
addition, the Senate Finance Committee was concerned that there may be as few as
2 investigations per special agent and that it takes on average 2 years to prepare and present a
case to the DOJ for prosecution. In April 2005, the House Ways and Means Subcommittee on
Oversight expressed concerns about the increase in refund fraud committed by individuals who
are incarcerated in Federal and State prisons.

Trends related to legal source income tax investigations
The CI function’s Annual Business Plans have consistently described legal source tax cases as a
top investigative priority, and we believe these cases are an important component of all
tax-related investigations. We previously challenged the CI function’s efforts to show progress
towards increasing the level of legal source investigations over the years, despite articulating a



11
   Includes new recruits, part-time special agents, field and Headquarters office managers and program analysts, and
Lead Development Center and Fraud Detection Center special agents.
12
   See Appendix V, Figure 1.
13
   See Appendix V, Figures 4 and 10.
                                                                                                            Page 5
                    Statistical Portrayal of the Criminal Investigation Function’s
                      Enforcement Activities From Fiscal Year 2000 Through
                                           Fiscal Year 2005



focus on these types of investigations in its strategic documents.14 Although we could not
conclusively determine during that review whether the CI function was conducting enough legal
source income investigations, or to what extent it can or should increase the number, we
identified several areas in which the CI function could make improvements to the legal source
investigative program and more effectively measure the program’s impact on tax compliance.
Criminal enforcement indicators in the legal source and tax-related program areas showed
improvements in FYs 2004 and 2005. For example:
     •   The numbers of legal source and tax-related subject investigations initiated are at 6-year
         highs and have increased 12.4 percent and 7.3 percent, respectively, since FY 2003.15
     •   The amount of DIT spent on legal source and tax-related subject investigations are at
         6-year highs and have increased 2.4 percentage points and 1.7 percentage points,
         respectively, since FY 2003.16
     •   The total number of legal source investigations referred for prosecution is at a 6-year high
         and has increased 15.6 percent since FY 2003. The number of tax-related investigations
         referred for prosecution decreased slightly from its 5-year peak reached in FY 2004.17
     •   The percentage of legal source investigations accepted by the DOJ continued to show
         improvement, increasing from 95.0 percent in FY 2003 to 96.3 percent in FY 2005.
     •   The numbers of legal source and tax-related investigations in the pipeline are at 6-year
         highs and have increased 25.1 percent and 25.8 percent, respectively, since FY 2003.18
     •   The numbers of subjects convicted of and sentenced for a crime in the legal source
         category have steadily increased since FY 2003.19
The results listed above demonstrate the CI function’s progress towards investigating those cases
that have the greatest impact on tax compliance. We believe this is attributable to CI
management’s continued emphasis on the core mission and investigative priorities of legal
source and tax-related investigations.



14
   The Criminal Investigation Function Has Made Progress in Investigating Criminal Tax Cases; However,
Challenges Remain (Reference Number 2005-10-054, dated March 2005).
15
   See Appendix V, Figures 6 and 5.
16
   See Appendix V, Figure 3. Also, the CI function reduced the narcotics program DIT from 15.1 percent in
FY 2003 to 12.1 percent in FY 2005, to more closely align with funding received from the Organized Crime Drug
Enforcement Task Force program. Thus, the CI function could redirect these resources into legal source and
tax-related cases.
17
   See Appendix V, Figures 18 and 17.
18
   See Appendix V, Figures 22 and 21.
19
   See Appendix V, Figures 24 and 27.
                                                                                                        Page 6
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2005



Trends related to the number of investigations per special agent
The CI function uses the average inventory of subject investigations per special agent and the
average total inventory per special agent as business results measures. The average inventory
calculation includes only open subject investigations, whereas the total inventory calculation
includes primary investigations, open and pipeline subject investigations, and subject seizure
investigations.
In FY 2003, the average inventory of subject investigations per special agent was 2.00. This
decreased to 1.84 in FY 2004, and then increased to 1.94 in FY 2005. On the other hand, the
total inventory per special agent, which we believe is a better indicator of a special agent’s
workload, increased from 7.86 in FY 2003 to 8.53 in FY 2005, the highest level since FY 2001.20

Trends related to the time it takes to prepare and present a case to the DOJ for
prosecution
The elapsed time to recommend a case for prosecution remained nearly the same since FY 2003.
The elapsed time to discontinue a case increased 2.2 percent during the same period to
437.1 calendar days.21
In 2003, the Commissioner raised concerns about the length of time it takes to recommend a case
for prosecution. Since then, the CI function has emphasized reduction of cycle time. The CI
function Office of Planning and Strategy recently conducted a study to determine the desired
cycle-time range and whether additional reductions were feasible. The CI function established a
benchmark figure for the completion of legal and illegal source investigations (415 calendar days
to 425 calendar days) because these investigations closely align with the CI function’s mission
and measure investigative efficiency. CI function management believes they can achieve this
goal with proper oversight.

Trends related to the Questionable Refund Program (QRP)
Refund fraud continues to grow. Since Processing Year 2003, the number of fraudulent or
potentially fraudulent returns detected by the QRP increased 36.2 percent, and the total amount
of fraudulent refunds stopped increased 53.8 percent.22 As part of its continuing efforts to
increase enforcement and combat refund fraud, the CI function has increased staffing dedicated
to refund fraud by 35.8 percent since FY 2003.




20
   See Appendix V, Figure 10.
21
   See Appendix V, Figure 16.
22
   See Appendix V, Figures 31 and 32.
                                                                                           Page 7
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2005



In April 2005, at the request of the House Ways and Means Subcommittee on Oversight, we
conducted a limited-scope review23 concerning refund fraud committed by individuals who are
incarcerated in Federal and State prisons, which has grown significantly in recent years. We
reported that inaccurate and missing information from the prisoner data file prevented the IRS
from detecting all fraudulent refund returns filed by prisoners. In addition, Internal Revenue
Code § 610324 generally prohibits the IRS from sharing Federal tax information with other
agencies such as State prison authorities, except under limited circumstances. We made no
recommendations in that report; however, we committed to conducting a follow-on review to
determine the effectiveness of the IRS’ processes for detecting and preventing fraudulent refund
returns.25
In January 2006, the National Taxpayer Advocate issued her 2005 Annual Report to Congress
reporting significant problems with the QRP as currently designed and administered. Shortly
thereafter, the Senate Finance Committee and the House Ways and Means Oversight
Subcommittee sent letters to the Secretary of the Treasury and the IRS Commissioner expressing
concern that taxpayers whose refunds were frozen were not always notified. Congress requested
a review of the QRP, and on January 24, 2006, the IRS Commissioner announced he had
initiated an internal review to improve the QRP process. We are also conducting a review of the
CI function’s QRP to determine the effectiveness of procedures for detecting fraudulent and
potentially fraudulent refund returns.26

Investigations Initiated From External Sources
The CI function initiates investigations from many different sources, both from within and
outside the IRS. The primary sources from within include fraud referrals from the IRS
compliance functions and investigations developed by the CI function from the QRP and Return
Preparer Program. The primary sources of investigations from outside the IRS include the
USAOs and other Government agencies, both Federal and State. In addition, the CI function
initiates investigations based on information received from public sources, including the media
and informants.
During FY 2005, about 53.1 percent of subject investigations initiated came from the USAOs or
other Government agencies. This decreased from 54.8 percent and 58.4 percent in FYs 2003 and
2004, respectively.
In contrast, during FY 2005, about 36.2 percent of subject investigations initiated originated
from within the IRS. This is trending upward from 31.6 percent and 30.1 percent reported in

23
   The Internal Revenue Service Needs to Do More to Stop the Millions of Dollars in Fraudulent Refunds Paid to
Prisoners (Reference Number 2005-10-164, dated September 2005).
24
   Internal Revenue Code § 6103 (2006).
25
   Review of the Criminal Investigation Function’s Questionable Refund Program (Audit # 200610003).
26
   Review of the Criminal Investigation Function’s Questionable Refund Program (Audit # 200610003).
                                                                                                          Page 8
                    Statistical Portrayal of the Criminal Investigation Function’s
                      Enforcement Activities From Fiscal Year 2000 Through
                                           Fiscal Year 2005



FYs 2003 and 2004, respectively. Further, the number of subject investigations initiated from a
public source has decreased 16.4 percent during the last 2 fiscal years. During FY 2005, subject
investigations from a public source represented 10.7 percent of the total investigations initiated.
Historically, internal IRS programs have been the primary sources of investigations involving
pure tax violations. Between FYs 2000 and 2005, almost 64.2 percent of legal source
investigations came from within the IRS. During FY 2005, 71.0 percent of legal source
investigations and 50.9 percent of tax-related investigations came from internal IRS sources. On
the other hand, more than one-half (57.2 percent) of the cases initiated from USAOs and other
Government agencies were nontax-related investigations.
We continue to believe the CI function should remain vigilant when evaluating whether the level
of cases initiated from sources external to the IRS maintains a proper balance with its stated
priorities of legal source and tax-related investigations. We previously reported that the tax
enforcement process works most effectively if the CI function and the various USAOs have the
same priorities.27 While we understand the CI function needs to maintain an effective working
relationship with the USAOs, we also believe the CI function must be judicious in deciding
which investigations to work with other agencies (especially if the connection to tax
administration is not clear). In response to our prior report, the Chief, CI, reemphasized the CI
function’s commitment to working the highest impact cases with the strongest deterrent effect, as
evidenced by the following language from the FY 2006 Annual Business Plan: “The CI function
will continue to emphasize investigations, both legal and illegal source, that adversely affect tax
administration through two major compliance strategies that address our investigative priorities
with other divisions and law enforcement partners.”

Fraud referral program successes
In response to our prior report on the legal source program,28 the CI function committed to taking
several steps to enhance the fraud referral program such as establishing fraud referral coordinator
positions in each field office, fostering relationships with other IRS operating divisions, and
incorporating language into the managers’ commitments. As a result of these changes, the CI
function received 17.9 percent more fraud referrals during FY 2005 than during FY 2004.29
Further, the CI function received and accepted (numbered a subject investigation) 418 fraud
referrals during FY 2005, an increase of 34 percent over FY 2004, and rejected (closed with no
subject investigation) 15.9 percent fewer referrals during FY 2005 than during FY 2004.




27
   The Criminal Investigation Function Has Made Progress in Investigating Criminal Tax Cases; However,
Challenges Remain (Reference Number 2005-10-054, dated March 2005).
28
   The Criminal Investigation Function Has Made Progress in Investigating Criminal Tax Cases; However,
Challenges Remain (Reference Number 2005-10-054, dated March 2005).
29
   See Appendix V, Figure 9.
                                                                                                         Page 9
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2005



In addition, the performance results presented in Figure 1 illustrate recent improvements in the
fraud referral program.
     Figure 1: FYs 2004 and 2005 Fraud Referral Program Performance Results

                                                               FY 2004       FY 2005       Percentage
                                                                                            Change

         Number of Subject Investigations                            419            569           35.8%
         Initiated

         Number of Investigations                                   24530           325           32.7%
         Recommended for Prosecution

         Number of Subjects Convicted                                185            184           -0.5%

         Number of Subjects Sentenced                                149            185           24.2%

         Average Months to Serve                                       18             23          27.8%
        Source: CI function Business Performance Review, dated September 30, 2005 and analysis by the
        CI function Office of Research.

Because fraud referrals remain a viable and important source of legal source income tax
investigations, we are encouraged by the recent results demonstrated by the fraud referral
program. We believe the CI and Compliance functions should continue to emphasize the
importance of these types of investigations as they relate to tax administration and the IRS’
efforts to improve voluntary compliance.




30
  In its response, the CI function advised us of the accurate numbers for the FY 2004 categories of Number of
Investigations Recommended for Prosecution and Number of Subjects Convicted. Our report reflects these
corrections.
                                                                                                          Page 10
                       Statistical Portrayal of the Criminal Investigation Function’s
                         Enforcement Activities From Fiscal Year 2000 Through
                                              Fiscal Year 2005



                                                                                  Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide statistical information and trend analyses of
the Criminal Investigation (CI) function’s enforcement activities from Fiscal Years 2000 through
2005. To accomplish our objective, we reviewed Internal Revenue Service data publications and
CI function management information to analyze data and identify trends. We relied on
information accumulated by the Internal Revenue Service in established reports and the
CI function’s management information system and did not verify its accuracy. The major issues
we focused on included:
           •   Special Agent Staffing.1
           •   Investigation Initiations.
           •   Open Investigations.
           •   Pipeline Investigations.
           •   Investigation Closures.
           •   Investigations Referred for Prosecution.
           •   Subsequent Legal Actions.
           •   Compliance Strategy Programs.
Where appropriate, we also referenced previously issued Treasury Inspector General for Tax
Administration audit reports to provide additional perspective.




1
    A Glossary of Terms is included in Appendix IV.
                                                                                         Page 11
                 Statistical Portrayal of the Criminal Investigation Function’s
                   Enforcement Activities From Fiscal Year 2000 Through
                                        Fiscal Year 2005



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Diana M. Tengesdal, Audit Manager
Ahmed Tobaa, Lead Auditor
James S. Mills, Senior Auditor




                                                                                      Page 12
                 Statistical Portrayal of the Criminal Investigation Function’s
                   Enforcement Activities From Fiscal Year 2000 Through
                                        Fiscal Year 2005



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS




                                                                                    Page 13
                  Statistical Portrayal of the Criminal Investigation Function’s
                    Enforcement Activities From Fiscal Year 2000 Through
                                         Fiscal Year 2005



                                                                                    Appendix IV

                                Glossary of Terms

Business Performance Review – A quarterly review conducted by the Criminal Investigation
(CI) function of its performance measures, business results, employee and customer satisfaction,
and other items of importance to the CI function.
Compliance Strategy – The CI function strategy comprised of three interdependent program
areas: Legal Source Tax Crimes, Illegal Source Financial Crimes, and Narcotics-Related
Financial Crimes.
Conviction Efficiency – A measure of cost efficiency. The measure quantifies the average
dollar cost of convictions and is computed by dividing the CI function’s financial plan by the
number of convictions.
Conviction Rate – A measure of the quality of investigations. It is the total number of cases
with investigation status codes of guilty plea, nolo contendere, judge guilty, or jury guilty
divided by the total number of cases with these same status codes plus nolle prosequi, judge
dismissed, judge acquitted, and jury acquitted.
Cycle Time – Elapsed calendar days on completed investigations.
Criminal Investigation Management Information System – A database that tracks the status
and progress of criminal investigations and the time expended by special agents.
Direct Investigative Time – Time spent by special agents conducting investigations and other
law enforcement activities.
Discontinued Investigation – A subject investigation that resulted in a determination there was
no prosecution potential.
Elapsed Days – The number of calendar days between the initiation of a subject investigation to
another date such as the date discontinued or date referred for prosecution.
Field Special Agent – A special agent in 1 of the CI function’s 33 field offices.
Fraud Detection Center – A CI function organization responsible for identifying and detecting
refund fraud, preventing the issuance of false refunds, and providing support for the CI function
field offices.
Grand Jury Investigation – An investigation conducted through the use of a Federal grand jury
to determine if a subject should be charged with a crime. The use of the Federal grand jury to
investigate the potential crime(s) may be initiated by the CI function or by an attorney for the
Federal Government.
                                                                                          Page 14
                  Statistical Portrayal of the Criminal Investigation Function’s
                    Enforcement Activities From Fiscal Year 2000 Through
                                         Fiscal Year 2005



Illegal Source Financial Crimes – Those crimes involving illegally earned income. They
include crimes involving money laundering, United States Code (U.S.C.) Title 18 Sections (§§)
1956 and 1957, sections of U.S.C. Title 31, and U.S.C. Title 26 violations investigated in
conjunction with other agencies.
Inventory/Agent – The number of open subject investigations divided by the number of field
special agents whose salary grade level is 13 or below and having various position descriptions
including those of coordinator and reviewer.
Lead Development Center – The primary function of a Lead Development Center is to identify
and develop quality investigations to meet the CI function’s business plan. The Lead
Development Centers assist CI field offices by conducting research and analysis on alleged
noncompliance.
Legal Source Tax Crimes – Those crimes involving legal industries and occupations and
legally earned income.
Narcotics-Related Financial Crimes – Those crimes involving tax and money laundering that
are related to narcotics and drug trafficking.
National Taxpayer Advocate – The Taxpayer Advocate helps taxpayers resolve problems with
the Internal Revenue Service and recommends changes to prevent the problems.
Nolle Prosequi – A declaration that the plaintiff in a civil case or the prosecutor in a criminal
case will drop prosecution of all or part of a suit or indictment.
Nolo Contendere – A plea made by the defendant in a criminal action that is substantially, but
not technically, an admission of guilt and subjects the defendant to punishment but permits
denial of the alleged facts in other proceedings.
Organized Crime Drug Enforcement Task Force Program – A multi-agency enforcement
initiative that jointly handles drug investigations using investigative grand juries.
Pipeline Inventory – A subject investigation that has been recommended for prosecution and
the subject has not been convicted or acquitted, or the case has not been dismissed. It excludes
investigations in which the subject became a fugitive after indictment.
Primary Investigation – An evaluation of an allegation that an individual or entity is in
noncompliance with the internal revenue laws and related financial crimes.
Processing Year – Refers to the year in which taxpayers file their tax returns at the Submission
Processing sites. Generally, returns for Tax Year 2004 were processed during 2005, although
returns for older years were also processed in 2005.
Questionable Refund Program – A nationwide, multifunctional program designed to identify
fraudulent returns, stop the payment of fraudulent refunds, and refer identified fraudulent refund
schemes to CI function field offices.

                                                                                            Page 15
                  Statistical Portrayal of the Criminal Investigation Function’s
                    Enforcement Activities From Fiscal Year 2000 Through
                                         Fiscal Year 2005



Referred for Prosecution – A subject investigation that resulted in the determination of
prosecution potential referred to the Department of Justice or a United States Attorney Office.
Return Preparer Program – A program that pursues unscrupulous return preparers who
knowingly claim excessive deductions and exemptions on returns prepared for clients. The
clients may or may not have knowledge of the false claims.
Special Agent – A CI function law enforcement employee who investigates potential criminal
violations of the internal revenue laws and related financial crimes.
Subject Investigation – An investigation of an individual or entity alleged to be in
noncompliance with the laws enforced by the Internal Revenue Service and having prosecution
potential.
Subject Seizure Investigation – An investigation to locate and seize assets that are subject to
seizure or forfeiture under various U.S.C. titles and sections such as 26 U.S.C. § 7302 or
18 U.S.C. §§ 981, 982, or 984.
Submission Processing Sites – The Submission Processing sites are the data processing arm of
the Internal Revenue Service. They process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
Tax-Related Violation – A violation involving Title 26, Title 33 sections, or one of the
following Title 18 sections: § 286, § 287, § 371 or § 514 associated with a Title 26 violation, or
§ 371 associated with a Title 26 and a Title 31 violation.
Title 18 – U.S.C. Title 18, Crimes and Criminal Procedure. Various sections of Title 18 apply to
violations that are within the jurisdiction of the CI function. Examples include § 286,
Conspiracy to Defraud the Government with Respect to Claims; § 287, False, Fictitious, or
Fraudulent Claims; § 371, Conspiracy to Commit Offense or to Defraud United States; and
§§ 1956 and 1957, Laundering of Monetary Instruments and Engaging in Monetary Transactions
in Property Derived from Specified Unlawful Activity. The most common section investigated
under this statute is money laundering.
Title 26 – U.S.C. Title 26, Internal Revenue Code.
Title 31 – U.S.C. Title 31, Money and Finance. Several sections of Title 31 apply to violations
that are within the jurisdiction of the CI function. Examples include § 5322, Criminal Penalties
(for willful violations of Title 31 sections), and § 5324, Structuring Transactions to Evade
Reporting Requirement Prohibited.
Title 33 – U.S.C. Title 33, Taxation and Finance – Virgin Islands. Several sections of Title 33
apply to violations that are within the jurisdiction of the CI function. Examples include § 1521,
Attempt to Evade or Defeat Tax; § 1522, Conspiracy to Evade or Defeat Tax; and § 1523,
Willful Failure to Collect or Pay Over Tax.


                                                                                           Page 16
                     Statistical Portrayal of the Criminal Investigation Function’s
                       Enforcement Activities From Fiscal Year 2000 Through
                                            Fiscal Year 2005



                                                                                                         Appendix V

            Detailed Charts of Statistical Information

Figure 1 – Special Agent and Field Special Agent Staffing at the
           End of Each Fiscal Year ......................................................................Page 20
Figure 2 – Special Agent Direct Investigative Time Expended
           Each Fiscal Year .................................................................................Page 20
Figure 3 – Percentage of Direct Investigative Time Spent on Legal Source
           and Tax-Related Investigations Each Fiscal Year ..............................Page 21
Figure 4 – Number of Subject Investigations Initiated and Number
           Initiated per Field Special Agent Each Fiscal Year..............................Page 21
Figure 5 – Number of Subject Investigations Initiated Each Fiscal Year for a
           Tax-Related or Nontax-Related Violation and Percentage
           That Is Tax-Related..............................................................................Page 22
Figure 6 – Number of Subject Investigations Initiated Each Fiscal Year by
           Compliance Strategy Program and Percentage That Is Legal
           Source Tax Crimes ...............................................................................Page 22
Figure 7 – Number of Subject Investigations Initiated Each Fiscal Year by
           Principle United States Code Title .......................................................Page 23
Figure 8 – Number of Subject Investigations Initiated Each Fiscal Year by
           Source of the Allegation or Information ..............................................Page 24
Figure 9 – Number of Fraud Referrals Received and Percentage Accepted
           Each Fiscal Year...................................................................................Page 24
Figure 10 – Number of Open Subject Investigations, Total of All Investigations
            at the End of Each Fiscal Year, and Number per Nonsupervisory
            Special Agent in Field Offices ...........................................................Page 25
Figure 11 – Number of All Types of Investigations Open in Various Stages at
            the End of Each Fiscal Year ...............................................................Page 25
Figure 12 – Number of Open Subject Investigations Each Fiscal Year for
            a Tax-Related or Nontax-Related Violation and Percentage
            That Is Tax-Related ............................................................................Page 26

                                                                                                                    Page 17
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2005



Figure 13 – Number of Open Subject Investigations Each Fiscal Year by
            Compliance Strategy Program and Percentage That Is Legal
            Source Tax Crimes .............................................................................Page 26
Figure 14 – Number of Open Subject Investigations at the End of Each Fiscal
            Year by Type of Investigation: Grand Jury or Nongrand Jury
            Investigation .......................................................................................Page 27
Figure 15 – Number of Subject Investigations Discontinued or Referred for
            Prosecution Each Fiscal Year and Percentage Referred for
            Prosecution .........................................................................................Page 27
Figure 16 – Average Elapsed Days for Subject Investigations Discontinued
            and Referred for Prosecution Each Fiscal Year .................................Page 28
Figure 17 – Number of Subject Investigations Referred for Prosecution
            Each Fiscal Year for a Tax-Related or Nontax-Related Violation
            and Percentage That Is Tax-Related...................................................Page 28
Figure 18 – Number of Subject Investigations Referred for Prosecution
            Each Fiscal Year by Compliance Strategy Program and
            Percentage That Is Legal Source Tax Crimes ....................................Page 29
Figure 19 – Number of Subject Investigations Referred for Prosecution
            Each Fiscal Year by Principle United States Code Title....................Page 29
Figure 20 – Number of Subject Investigations Referred for Prosecution
            Each Fiscal Year by Type of Investigation: Grand Jury or
            Nongrand Jury Investigation ..............................................................Page 30
Figure 21– Number of Tax-Related and Nontax-Related Subject Investigations
           in the Pipeline Each Fiscal Year and Percentage That Is
           Tax-Related.........................................................................................Page 30
Figure 22 – Number of Subject Investigations in the Pipeline Each Fiscal
            Year by Compliance Strategy Program and Percentage That
            Is Legal Source Tax Crimes ...............................................................Page 31
Figure 23 – Number of Subjects Convicted of and Sentenced for a Crime
            Each Fiscal Year.................................................................................Page 31
Figure 24 – Number of Subjects Convicted of a Crime Each Fiscal Year by
            Compliance Strategy Program and Percentage That Is Legal
            Source Tax Crimes .............................................................................Page 32


                                                                                                                       Page 18
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2005



Figure 25 – Number of Subject Investigations Initiated, Referred for
            Prosecution, Indicted, and Convicted Each Fiscal Year ....................Page 32
Figure 26 – Number of Subjects Sentenced for a Crime Each Fiscal Year for a
            Tax-Related or Nontax-Related Violation and Percentage That Is
            Tax-Related ........................................................................................Page 33
Figure 27 – Number of Subjects Sentenced for a Crime Each Fiscal Year by
            Compliance Strategy Program and Percentage That Is Legal
            Source Tax Crimes .............................................................................Page 33
Figure 28 – Number of Subjects Sentenced for a Crime Each Fiscal Year by
            Principle United States Code Title .....................................................Page 34
Figure 29 – Average Number of Months a Subject Is Incarcerated Each
            Fiscal Year by Compliance Strategy Program ...................................Page 34
Figure 30 – Percentage of Investigations That Received Publicity Each
            Fiscal Year by Compliance Strategy Program ...................................Page 35
Figure 31 – Number of Paper and Electronic Returns Determined to Be
            Fraudulent or Potentially Fraudulent by the Criminal
            Investigation Function’s Questionable Refund Program ...................Page 35
Figure 32 – Dollar Amounts of Fraudulent Refunds Identified and Stopped
            by the Criminal Investigation Function’s Questionable Refund
            Program. .............................................................................................Page 36




                                                                                                                        Page 19
                          Statistical Portrayal of the Criminal Investigation Function’s
                            Enforcement Activities From Fiscal Year 2000 Through
                                                 Fiscal Year 2005



Figure 1: Special Agent and Field Special Agent Staffing at the End of Each Fiscal Year.1

      3,000

                                     2,822               2,902                                       2,823
                                                                                           2,796
                                                                        2,800
      2,800           2,734


      2,600                                              2,610
                                                                        2,543
                      2,513                                                                 2,490
                                       2,477
      2,400                                                                                            2,416



      2,200
                  FY 00            FY 01            FY 02           FY 03                FY 04      FY 05

                                               Special Agents     Field Special Agents

    Source: The Criminal Investigation (CI) function’s analysis of staffing information.

Figure 2: Special Agent Direct Investigative Time Expended Each Fiscal Year.
      59.0%
      58.5%                                                              58.5%
      58.0%
      57.5%            57.5%
                                                                                                       57.4%
      57.0%
                                                          56.7%                             56.9%
      56.5%
      56.0%
      55.5%
      55.0%                             55.1%

      54.5%
      54.0%
                   FY 00           FY 01             FY 02          FY 03                FY 04      FY 05


    Source: The Criminal Investigation Management Information System (CIMIS) Report 2, Total Time by Criminal
    Investigation Program and Activity.




1
 In Fiscal Year (FY) 2005, the CI function revised its calculation formula to include case reviewers and updated the
special agent numbers for FYs 2000 to 2004; therefore, the numbers may not agree with those in prior reports.
                                                                                                             Page 20
                         Statistical Portrayal of the Criminal Investigation Function’s
                           Enforcement Activities From Fiscal Year 2000 Through
                                                Fiscal Year 2005



Figure 3: Percentage of Direct Investigative Time Spent on Legal Source and Tax-Related
Investigations Each Fiscal Year.




                                                            %




                                                                               %




                                                                                                  %




                                                                                                                     %
                                           %
                          %

      70.0%




                                                          .3




                                                                             .7




                                                                                                .2




                                                                                                                   .4
                                         .9
                        .8




                                                        61




                                                                           65




                                                                                              66




                                                                                                                 67
                                       59
                      59




      60.0%




                                                                                                                 %
                                                                                              %
                                                                       %
                     %




                                                                                                               .8
                                                     %




                                                                                            .2
                                    %




                                                                     .4
      50.0%
                   .8




                                                                                                             44
                                                                                          43
                                                   .9




                                                                   42
                                  .1
                 41




                                                 39
                                39



      40.0%

      30.0%

      20.0%

      10.0%

       0.0%
                   FY 00            FY 01            FY 02               FY 03              FY 04              FY 05

                                                 Legal Source         Tax-Related

    Source: The CI function’s Business Performance Review (BPR) reports and analysis of the CIMIS.

Figure 4: Number of Subject Investigations Initiated and Number Initiated per Field
Special Agent Each Fiscal Year.2
                                                                     1




                                                                                                          9
                                                                                      17
                                                    6




      4,500                                                                                                          3.00
                                                                  00




                                                                                                       26
                                                 90




                                                                                      9
                                                                 4,




                                                                                                      4,
                                                                                   3,
                                                3,




      4,000
                     2




                                      4
                   37




                                   28




                                                                                                                     2.50
                 3,




                                3,




      3,500
      3,000                                                                                                          2.00
      2,500
                                                                                                      1.93           1.50
      2,000                                    1.65              1.74              1.74
                 1.51           1.48
      1,500                                                                                                          1.00
      1,000
                                                                                                                     0.50
        500
          0                                                                                                          0.00
                 FY 00          FY 01           FY 02            FY 03             FY 04              FY 05

                              Subject Investigations Initiated           Initiated per Field Agent

Source: Internal Revenue Service (IRS) Data Book, Publication 55B for FYs 2000 through 2004 investigations
initiated; the CI function BPR for FY 2005 data; and Treasury Inspector General for Tax Administration (TIGTA)
analysis based on the number of field agents provided by the CI function.




2
 In FY 2005, the CI function revised its calculation formula to include case reviewers and updated the special agent
numbers for FYs 2000 to 2004; therefore, the numbers may not agree with those in prior reports.
                                                                                                                       Page 21
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2005



Figure 5: Number of Subject Investigations Initiated Each Fiscal Year for a Tax-Related
or Nontax-Related Violation and Percentage That Is Tax-Related.




                                                                                                          1
  3,000                                                                                                            100.0%




                                                                                                        63
                                                   8




                                                                     2
                                                 46




                                                                   45




                                                                                                      2,
                                                                                                                   90.0%




                                               2,




                                                                 2,




                                                                                       4
                                                                                     16
  2,500                                                                                                            80.0%




                                                                                   2,
                                 4
               6




                               85
             78




                                                                                                                   70.0%
                             1,




  2,000
           1,




                                                        63.2%             61.3%                              61.6% 60.0%
                     53.0%            56.5%                                                   55.2%
  1,500                                                                                                            50.0%
                                                                                               53
                      86                                                    49             1,7
                                                                                                           ,6 38   40.0%
                   1,5                  30                38             1,5                              1
  1,000                              1,4               1,4                                                         30.0%
    500                                                                                                            20.0%
                                                                                                                   10.0%
      0                                                                                                            0.0%
             FY 00             FY 01             FY 02             FY 03             FY 04              FY 05

                              Tax-Related               Nontax-Related             % Tax-Related

Source: The CI function’s BPR reports and analysis of the CIMIS.

Figure 6: Number of Subject Investigations Initiated Each Fiscal Year by Compliance
Strategy Program and Percentage That Is Legal Source Tax Crimes.
  1,800                                                                                                   93    32
                                                                                                                     100.0%
                                                  54                06   5                   7         1,6   1,6
  1,600                                        1,5        85     1,5 1,53                  53                        90.0%
                                                       1,4                          ,370 1,
                                        13                                         1                                 80.0%
  1,400       54                     1,3
           1,2                                                                                                       70.0%
  1,200           09 109 ,020                                                                    10
               1,0 1,   1                                                      0              1,0                4   60.0%
  1,000                                  95
                                           1                 7               96                                94
                                                           86
                                                                                                                     50.0%
    800
                    37.2%                                39.8%             37.6%                              39.7% 40.0%
    600                                                                                      35.0%
                                       31.1%                                                                         30.0%
    400                                                                                                              20.0%
    200                                                                                                              10.0%
      0                                                                                                              0.0%
             FY 00             FY 01             FY 02             FY 03             FY 04               FY 05
              Legal Source               Illegal Source            Narcotics-Related                  % Legal Source


Source: IRS Data Book, Publication 55B for FYs 2000 to 2004, and the CI function’s BPR report for FY 2005.




                                                                                                                            Page 22
                  Statistical Portrayal of the Criminal Investigation Function’s
                    Enforcement Activities From Fiscal Year 2000 Through
                                         Fiscal Year 2005



Figure 7: Number of Subject Investigations Initiated Each Fiscal Year by Principle United
States Code Title. The number of subject investigations initiated during FY 2005 as Title 31
includes one investigation that was categorized as “other” on the CIMIS Report 11. This did not
occur in the prior fiscal years. See Glossary of Terms in Appendix IV for definitions.

   2,500                                                                          2,199        2,141
             1,922                          1,911               2,004
   2,000                   1,700                                                                   1,975
                                                                     1,875
                                                  1,847
                                                                                       1,602
   1,500                       1,482
                 1,360

   1,000

    500
                 99           102                 148                122              116
                                                                                                   153
      0
             FY 00         FY 01           FY 02                FY 03             FY 04        FY 05

                                       Title 18           Title 26         Title 31

Source: CIMIS Report 11, Program Summary Analysis.




                                                                                                           Page 23
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2005



Figure 8: Number of Subject Investigations Initiated Each Fiscal Year by Source of the
Allegation or Information. IRS sources include fraud referrals from the Compliance functions,
investigations developed by the Fraud Detection Centers and Lead Development Centers, and
currency transactions.
   2,500
                      2,144            2,064           2,016                                                    2,267
                                                                          2,191               2,286
   2,000

   1,500                                                                                                        1,547
                                                         1,334               1,266
                                                                                              1,179
   1,000
                      812               809
    500                                                                                                         455
                      416               411             556               544                 452
        0
                FY 00            FY 01               FY 02             FY 03            FY 04             FY 05


            U.S. Attorney & Other Agencies              Internal Revenue Service                Public and Other

Source: TIGTA analysis of the CIMIS and CIMIS Report 11, Program Summary Analysis. We reclassified some
investigations from Public and Other to IRS based on our analysis of the CIMIS and the CI function advising that
some sources in Report 11 were misclassified.

Figure 9: Number of Fraud Referrals Received and Percentage Accepted Each Fiscal
Year.
  700                                                                                                          100.0%
                                                                                                   5
                                                                                                 62
                                                                 9




  600
                                                               55




                                                                                  0
                                                 6




                                                                                53
                                               52




                                                                                                               80.0%
                                6
                              48




  500
                6




                                                                                                       68.8%
              43




                                                     62.9%           61.2%
                                                                                      58.0%                    60.0%
  400
                                    53.8%
                    50.8%
  300
                                                                                                               40.0%

  200
                                                                                                               20.0%
  100

    0                                                                                                          0.0%
              FY 00           FY 01            FY 02           FY 03            FY 04           FY 05

                                      Fraud Referrals Received          % Accepted

Source: The CI function’s BPR reports.




                                                                                                                      Page 24
                            Statistical Portrayal of the Criminal Investigation Function’s
                              Enforcement Activities From Fiscal Year 2000 Through
                                                   Fiscal Year 2005



Figure 10: Number of Open Subject Investigations, Total of All Investigations at the End
of Each Fiscal Year, and Number per Nonsupervisory Special Agent in Field Offices.3 The
total inventory includes open subject investigations as well as other investigations agents may
have been assigned concurrently with open subject investigations, such as primary
investigations, subject seizure investigations, and subject investigations that have been referred
for prosecution (pipeline).
      25,000                                                                                                            12.00
                         04




                                                                                                                67
                                                                                            37
                                                                           07
                       ,6




                                        65




                                                         04




                                                                                                              ,8
                     19




                                                                                          ,2
                                                                         ,1
                                      ,6




                                                                                                            18
                                                                                                                        10.00
                                                       ,3




                                                                                        18
                                                                       18
      20,000
                                    17




                                                     17

                       8.78                                                                                   8.53      8.00
      15,000                              7.94                               7.86         8.10
                                                           7.32                                                         6.00
      10,000                                                             5
                                                       5                                  6                  3
                     74
                       9
                                    70
                                      2              39                61               13                 28
                                                                                                                        4.00
                   3,             3,               4,                4,               4,                 4,
        5,000                                                                                                           2.00
                           1.68           1.66             1.86              2.00             1.84               1.94
            0                                                                                                           0.00
                   FY 00           FY 01            FY 02            FY 03            FY 04               FY 05

                  Subject Investigations                                 Total Inventory
                  Average Subject Inventory per Agent                    Average Total Inventory per Agent

    Source: The CI function’s analysis of the CIMIS and National Criminal Investigation Statistics.

Figure 11: Number of All Types of Investigations Open in Various Stages at the End of
Each Fiscal Year.
      24,000

      20,000
                    1,360                                                                                            1,678
                    3,484            1,325             1,189                  1,339             1,543
      16,000                                                                  3,072                                  3,846
                                     2,992             2,733                                    3,633
      12,000        3,749
                                     3,702             4,395                  4,615             4,136                4,283
       8,000
                   11,011            9,646                                    9,081                                  9,060
       4,000                                           8,987                                    8,925

           0
                   FY 00             FY 01             FY 02                  FY 03             FY 04                FY 05


                Primary Investigations      Subject Investigations       Pipeline Inventory          Seizure Investigations


    Source: The CI function’s analysis of the CIMIS and National Criminal Investigation Statistics.


3
 The CI function revised its calculation formula in FY 2005 to allow it to capture inventory numbers at fiscal
yearend. As a result, the inventory numbers reported in Figures 10 and 11 for the prior fiscal years changed and
may not agree with those in prior reports.
                                                                                                                                Page 25
                       Statistical Portrayal of the Criminal Investigation Function’s
                         Enforcement Activities From Fiscal Year 2000 Through
                                              Fiscal Year 2005



Figure 12: Number of Open Subject Investigations Each Fiscal Year for a Tax-Related or
Nontax-Related Violation and Percentage That Is Tax-Related.
   4,000                                                                                                             100.0%




                                                    7




                                                                     8
                                                  33




                                                                   45




                                                                                                         8
                                                                                                                     90.0%




                                                3,
   3,500




                                                                                      0




                                                                                                       25
                                                                 3,




                                                                                    14




                                                                                                     3,
                                  9




                                                                                  3,
                 9




                                72

                                                                                                                     80.0%
               62




   3,000                                                                                                     76.1%
                              2,
             2,




                                       73.7%            75.9%             74.9%            75.9%                     70.0%
   2,500              70.1%
                                                                                                                     60.0%
   2,000
                                                                                                                     50.0%




                                                                         7
                     0




                                                        8




                                                                       15




                                                                                                           5
                   12




   1,500
                                                      05




                                                                                                         02
                                                                                            6
                                                                     1,
                                        3




                                                                                                                     40.0%
                 1,




                                                    1,




                                                                                          99
                                      97




                                                                                                       1,
   1,000                                                                                                             30.0%
     500                                                                                                             20.0%
        0                                                                                                            10.0%
               FY 00            FY 01             FY 02            FY 03            FY 04            FY 05

                              Tax-Related               Nontax-Related            % Tax-Related

 Source: The CI function’s BPR reports and analysis of the CIMIS.

Figure 13: Number of Open Subject Investigations Each Fiscal Year by Compliance
Strategy Program and Percentage That Is Legal Source Tax Crimes.
   2,500                                                                                                             80.0%
                                                                      0




                                                                                                        1
                                                                    17
                                                    2




                                                                                                      12
                                                  10




                                                                                       0
                                                                  2,




                                                                                     05




                                                                                                    2,
                                                                                                                     70.0%
                                                2,




                                                                                   2,
                 9




                                                                         3
               83




                                                                                                           8
   2,000
                                                                       78




                                                                                                         68
                                  1




                                                        5
             1,




                                68




                                                                                                                     60.0%
                                                                     1,
                                                      69




                                                                                          4




                                                                                                       1,
                                                                                        54
                              1,




                                                    1,
                                     2




                     49.1%
                                                                                      1,
                                   40




   1,500                                                                                                     49.5% 50.0%
                                 1,




                                                         47.8%            47.0%             49.6%
                     1
                   11




                                        45.4%                                                                        40.0%
                 1,




   1,000                                                                                                             30.0%
                         9




                                                                            2
                       79




                                         9




                                                          8




                                                                          66
                                       61




                                                                                             2
                                                        59




                                                                                                               4
                                                                                           54




                                                                                                             47




                                                                                                                     20.0%
     500
                                                                                                                     10.0%

        0                                                                                                            0.0%
               FY 00            FY 01             FY 02             FY 03            FY 04            FY 05

                                  Legal            Illegal         Narcotics              % Legal

Source: The CI function’s National Criminal Investigation Statistics and analysis of the CIMIS.




                                                                                                                       Page 26
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2005



Figure 14: Number of Open Subject Investigations at the End of Each Fiscal Year by Type
of Investigation: Grand Jury or Nongrand Jury Investigation.
  3,500
  3,000                                                                       2,863
                                                         2,634                                2,566
                    2,377              2,334                                                                     2,621
  2,500
  2,000
                                                                              1,751                              1,662
  1,500                                                   1,761
                                       1,367                                                  1,570
                    1,371
  1,000
    500
      0
              FY 00                 FY 01             FY 02             FY 03             FY 04               FY 05

                                                    Grand Jury          Nongrand Jury

Source: CIMIS Report 11, Program Summary Analysis.

Figure 15: Number of Subject Investigations Discontinued or Referred for Prosecution
Each Fiscal Year and Percentage Referred for Prosecution.
  3,500                                                                                                         100.0%
                                                                                      3,037
                                                                                                      2,859     90.0%
  3,000
                                                                      2,541                                     80.0%
                  2,434           2,335
  2,500                                                                                                         70.0%
                                                      2,133
          69.6%             69.9%                             67.5%            69.2%          69.7%
                                            66.6%                                                               60.0%
  2,000
                                                                                                                50.0%
  1,500                                                                       1,350                             40.0%
                                                              1,225                           1,245
          1,065           1,005             1,068
  1,000                                                                                                         30.0%
                                                                                                                20.0%
    500
                                                                                                                10.0%
      0                                                                                                         0.0%
             FY 00             FY 01            FY 02             FY 03           FY 04           FY 05

                  Discontinued            Referred for Prosecution             % Referred for Prosecution

Source: IRS Data Book, Publication 55B for FYs 2000 through 2004 data, and CIMIS Report 11,
Program Summary Analysis for FY 2005.




                                                                                                                         Page 27
                         Statistical Portrayal of the Criminal Investigation Function’s
                           Enforcement Activities From Fiscal Year 2000 Through
                                                Fiscal Year 2005



Figure 16: Average Elapsed Days for Subject Investigations Discontinued and Referred for
Prosecution Each Fiscal Year.

   550
   500                483.5                506                 491
                                                                                                             460.8
   450                                                                                   427.5                                        437.1
   400                                                          413.2
                                                                                         383.8                                        386.6
   350                                    362.4                                                                    367.5
   300                315.7
   250
   200
              FY 00                  FY 01                   FY 02                FY 03                    FY 04                  FY 05

                                          Discontinued                  Prosecution Recommendations

 Source: CIMIS Report 11, Program Summary Analysis.

Figure 17: Number of Subject Investigations Referred for Prosecution Each Fiscal Year
for a Tax-Related or Nontax-Related Violation and Percentage That Is Tax-Related.

   2,000                                                                                                                              100.0%
   1,800                                                                                                       3                      90.0%
                                                                                                     4       57           4
                                                                              9                    46     1,            45
   1,600
                           38
                             9
                                                                            35                   1,                  1,         40
                                                                                                                                  5   80.0%
                         1,                    32
                                                 6                       1,               2                                   1,
   1,400                                    1,                                                                                        70.0%
                                                                    4                   18
                04
                  5                   9                  9        10               1,
   1,200     1,                     00                 02      1,                                                                     60.0%
                                 1,                  1,
                                                                                  53.5%                                       50.9% 50.0%
   1,000                                                     48.2%                                       48.2%
                      42.9%               43.2%
    800                                                                                                                               40.0%
    600                                                                                                                               30.0%
    400                                                                                                                               20.0%
    200                                                                                                                               10.0%
      0                                                                                                                               0.0%
              FY 00               FY 01              FY 02                FY 03                  FY 04                FY 05

                                    Tax-Related              Nontax-Related                   % Tax-Related

Source: The CI function’s BPR reports and analysis of the CIMIS.




                                                                                                                                               Page 28
                         Statistical Portrayal of the Criminal Investigation Function’s
                           Enforcement Activities From Fiscal Year 2000 Through
                                                Fiscal Year 2005



Figure 18: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by
Compliance Strategy Program and Percentage That Is Legal Source Tax Crimes.
                                                                                                       9
  1,400                                                                                              28                          100.0%
                                                                                                   1,
                                                                                                                         1
                                                                                                                       14        90.0%
  1,200                                                                          4                                   1,
                                                                               03
                                       3                                     1,                                                  80.0%




                                                                                                                 1
                         6           95




                                                                                                               95
  1,000                92                                  4                                             9




                                                                                               9
                                             7                                                         87                        70.0%
                                                         86




                                                                                             86
                                           84




                                                                         3
                   9




                                                                       82
                 79                                                                                                      76
                                                                                                                           7
                                                                                                                                 60.0%
             9




    800                                                                            4
           70




                                                                 9               68
                                                               65
                                                     0

                                                                                                                                 50.0%
                                                   61
                                 5
                               53




    600
                                                                                                                                 40.0%
                                                                                 32.4%                                   33.3%
    400                29.1%                                   28.6%                                   28.6%                     30.0%
                                           22.9%
                                                                                                                                 20.0%
    200
                                                                                                                                 10.0%
      0                                                                                                                          0.0%
             FY 00               FY 01               FY 02               FY 03                 FY 04               FY 05

              Legal Source                   Illegal Source              Narcotics-Related                     % Legal Source

Source: IRS Data Book, Publication 55B for FYs 2000 through 2004, and the CI function’s analysis of the CIMIS
for FY 2005.

Figure 19: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by
Principle United States Code Title.

  2,500

                                                                                                           1,922
  2,000                                                                                                                        1,779
                 1,573               1,539                                           1,594

  1,500                                                    1,289
                                                                                                           1,002               991
                                                                                     876
  1,000          794                  728                      772


    500
                  67                   68                      72                     71                     113                89

      0
              FY 00                  FY 01                 FY 02                     FY 03                 FY 04               FY 05

                                                    Title 18             Title 26              Title 31

Source: CIMIS Report 11, Program Summary Analysis.




                                                                                                                                          Page 29
                         Statistical Portrayal of the Criminal Investigation Function’s
                           Enforcement Activities From Fiscal Year 2000 Through
                                                Fiscal Year 2005



Figure 20: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by
Type of Investigation: Grand Jury or Nongrand Jury Investigation.

      3,000

      2,500
                      1,990                                                                       2,449                2,293
                                        1,955
      2,000
                                                                                 2,051
      1,500                                                 1,700

      1,000
                                                                            490                   588                 566
                  444                  380                433
       500

          0
                 FY 00             FY 01                FY 02             FY 03               FY 04                 FY 05

                                                  Grand Jury             Nongrand Jury

    Source: CIMIS Report 11, Program Summary Analysis.

Figure 21: Number of Tax-Related and Nontax-Related Subject Investigations in the
Pipeline Each Fiscal Year and Percentage That Is Tax-Related.4
      2,500                                                                                                           100.0%
                                                                                                        0
                                                                                                      05



                                                                                                                      90.0%
                                                                                     7




                                                                                                    2,
                                                                                   88
                  8
                80




      2,000                                                                                                           80.0%
                                                                                                                6
                                                                                 1,



                                                                                              6
                           6




                                                                                                              79
                                                                                            74
              1,



                         67




                                                                    0
                                                                  63




                                                                                                            1,
                                                                                          1,
                       1,



                                   8


                                           4




                                                                                                                      70.0%
                                 47




                                                                             2
                                         51




                                                                1,
                                                    6




                                                                           44
                                                            7
                               1,




                                                  34
                                       1,




                                                          38




                                                                         1,




      1,500                                                                                                           60.0%
                                                1,


                                                        1,




                                                                                                                      50.0%
                51.9%                                                                    51.9%            53.3%
      1,000                       49.4%                                 53.1%                                         40.0%
                                                   49.2%
                                                                                                                      30.0%
        500                                                                                                           20.0%
                                                                                                                      10.0%
          0                                                                                                           0.0%
                FY 00            FY 01            FY02              FY 03           FY 04               FY 05

                               Tax-Related              Nontax-Related             % Tax-Related

Source: The CI function’s BPR reports and analysis of the CIMIS.




4
 The CI function revised its calculation formula in FY 2005 to allow it to capture inventory numbers at fiscal
yearend. As a result, the inventory numbers reported in Figures 21 and 22 for the prior fiscal years changed and
may not agree with those in prior reports.
                                                                                                                               Page 30
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2005



Figure 22: Number of Subject Investigations in the Pipeline Each Fiscal Year by
Compliance Strategy Program and Percentage That Is Legal Source Tax Crimes.
  1,750                                                                                                     80.0%




                                                                                                     5
                                                                                                   55
                                                                                             1
                                                                                3




                                                                                                 1,
                                                                                                            70.0%




                                                                                           35
                                                                              47
  1,500




                                                                                         1,
                                                                             9
                                                                            1,
                     4




                                                                           20
                  28


                   8




                                                             7
                                                                                                            60.0%




                                                            0




                                                                         1,
               14




                                                           17
                1,




                                                          08
                                  0
  1,250




                                                  8
              2



                                11
             1,




                                                         1,
                                                02
            05




                                                        1,
                              1,




                                                                                   1
                                              1,
                                                                                                            50.0%
                              5
          1,




                                                                                 95




                                                                                                    0
                           93




                            7

                                          6




                                                                                                  94
  1,000



                                                  9
                          94

                                        86




                                                                    5
                                                83




                                                                  81
                                                                                                            40.0%
    750
                 36.9%                                          35.2%           33.3%            35.1%      30.0%
    500                       31.3%            31.7%
                                                                                                            20.0%
    250                                                                                                     10.0%

      0                                                                                                     0.0%
             FY 00         FY 01          FY 02               FY 03           FY 04            FY 05

                             Legal        Illegal         Narcotics            % Legal

Source: The CI function’s BPR reports and analysis of the CIMIS.

Figure 23: Number of Subjects Convicted of and Sentenced for a Crime Each Fiscal Year.
  2,600
                  2,475
  2,400
                2,249           2,251
  2,200                                               2,201                                                2,151
                             2,238
                                                                                       2,008
  2,000                                                                                                   2,095
                                                                      1,824
                                                  1,926
  1,800
                                                                      1,768             1,777
  1,600
              FY 00          FY 01             FY 02              FY 03               FY 04              FY 05

                                              Convicted           Sentenced

Source: IRS Data Book, Publication 55B for FYs 2000 to 2004, and the CI function’s analysis of the CIMIS
for FY 2005.




                                                                                                                    Page 31
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2005



Figure 24: Number of Subjects Convicted of a Crime Each Fiscal Year by Compliance
Strategy Program and Percentage That Is Legal Source Tax Crimes.

   1,200                                                                         100.0%
                                                                                 90.0%
                                 7
                               93




                                                                                                      4
   1,000                                                                         80.0%




                                                                                                    89
                                                                                      7
                                                                                    83
                                                                                 70.0%



                                                   8
                   5




                                                                    0
                  6




                                                 78
                                          6
                78




                                                                  76
                75




               8
                                        76
    800      70                                                         5        60.0%
                                                                      65



                                                          6
                                                             8                   50.0%




                                                                          5
                                                        61




                                                                                            3




                                                                                                             2
                           8                               57




                                                                        58




                                                                                          59
                                      2




                                                                                                           60
    600                  54         52           9                               40.0%
                                               47
                   31.5%                                        28.8%      30.5% 30.0%
                              24.3%      27.1%       26.3%
    400                                                                          20.0%
                                                                                 10.0%
    200                                                                          0.0%
               FY 00      FY 01      FY 02       FY 03      FY 04      FY 05

              Legal Source              Illegal Source            Narcotics-Related               % Legal Source

Source: IRS Data Books, Publication 55B for FYs 2000 through 2004, and the CI function’s analysis of
the CIMIS for FY 2005.

Figure 25: Number of Subject Investigations Initiated, Referred for Prosecution, Indicted,
and Convicted Each Fiscal Year. Since actions on a specific case may cross fiscal years, the
data shown in investigations initiated may not always represent the same universe of cases
shown in other actions within the same fiscal year.

  4,300                                                                                                               4,269
                                                         3,906             4,001                3,917
  3,800
                  3,372             3,284
  3,300                                                                                   3,037
                                                                                                                 2,859
  2,800                                                                 2,541
              2,434              2,335                                                            2,489
                   2,469                            2,133                                                             2,406
  2,300                                 2,292                               2,128
           2,249            2,251                                                                         2,151
                                                          1,924                       2,008
                                                1,926
  1,800                                                            1,824
              FY 00              FY 01              FY 02                FY 03              FY 04                FY 05
             Investigations Initiated         Referred for Prosecution           Indictments            Convictions

Source: IRS Data Book, Publication 55B for FYs 2000 through 2004, and the CI function’s National Criminal
Investigation Statistics for FY 2005.




                                                                                                                              Page 32
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2005



Figure 26: Number of Subjects Sentenced for a Crime Each Fiscal Year for a Tax-Related
or Nontax-Related Violation and Percentage That Is Tax-Related.
  1,600                                                                                             100.0%



                                       2
                                     33
                        1



  1,400                                                                                             90.0%
                      34




                                   1,
                4




                                                       8
              13




                                                                                              0
                    1,




                                                     17
                                                                                                    80.0%




                                                                                           08
                                               3




                                                                                            5
            1,




                                             02

                                                   1,
  1,200




                                                                                         01
                                                                                         1,
                                                                                                    70.0%

                                           1,




                                                                                       1,
                                                                             2
                               6




                                                                     3




                                                                          92
                             90




                                                                           5
                                                                   93
  1,000




                                                             5




                                                                         85
                                                                                                    60.0%




                                                           83
    800                                                                                       48.4% 50.0%
    600             45.8%                                        47.2%         48.1%                40.0%
                                                   46.5%
                                   40.5%                                                            30.0%
    400
                                                                                                    20.0%
    200                                                                                             10.0%
       0                                                                                            0.0%
              FY 00           FY 01          FY 02           FY 03         FY 04          FY 05

                            Tax-Related            Nontax-Related         % Tax-Related

Source: CI function enforcement statistics derived from the IRS Internet web site for FYs 2000 through 2004 and
the CI function’s analysis of the CIMIS for FY 2005.

Figure 27: Number of Subjects Sentenced for a Crime Each Fiscal Year by Compliance
Strategy Program and Percentage That Is Legal Source Tax Crimes.
  1,000                                                                                              100.0%
                                                                                            0
                                               8




                                                                                          90
                                             88
                                  9
                               85

                                1
              6




                                                                                                     90.0%
              9
             0




                              83
            84
           81
           81




                                                                             0
                                                                           75




    800                                                                                              80.0%
                                                               6
                                                     1



                                                             72
                                                   72




                                                                                                     70.0%
                                                                                         5
                                                                                       61
                                             2




                                                                                               0
                                           59




                                                                   8




                                                                                             58
                              8




                                                                 56
                            54




    600                                                                                              60.0%
                                                                                 0
                                                                           7

                                                                               52
                                                                         50
                                                             4
                                                           47




                                                                                                     50.0%
    400                                                                                              40.0%
                                                                                                     30.0%
               33.1%                                                                         29.4%
    200                                            26.9%         26.8%         28.5%                 20.0%
                                   24.5%
                                                                                                     10.0%
       0                                                                                             0.0%
              FY 00           FY 01          FY 02           FY 03         FY 04          FY 05

              Legal Source            Illegal Source         Narcotics-Related         % Legal Source

Source: IRS Data Books, Publication 55B for FYs 2000 through 2004, and the CI function’s analysis of the
CIMIS for FY 2005.




                                                                                                            Page 33
                           Statistical Portrayal of the Criminal Investigation Function’s
                             Enforcement Activities From Fiscal Year 2000 Through
                                                  Fiscal Year 2005



Figure 28: Number of Subjects Sentenced for a Crime Each Fiscal Year by Principle
United States Code Title.
  1,410
                       1,342                1,324
  1,210                                                            1,236                                                     1,212

  1,010                                                                                 1,018              1,040

                           868
    810
                                                                   769
    610                                          666                                                                          704
                                                                                         594                573
    410

    210               194                  168
                                                                 117                  111           91               107
                 71                   80                    79                   45               73               72
       10
                 FY 00                FY 01                 FY 02                FY 03            FY 04             FY 05

                                           Title 18              Title 26             Title 31         Other

Source: CIMIS Report 11, Program Summary Analysis.

Figure 29: Average Number of Months a Subject Is Incarcerated Each Fiscal Year by
Compliance Strategy Program. Incarcerated may include prison time, home confinement,
electronic monitoring, or a combination thereof.
  90
                      76                   79                     81                   77                                    82
  80                                                                                                       72
  70
  60
  50
  40                                  31                    33                   32                   32                34
                 27
  30
            15                                         15                   16                   18                17
  20                             13
  10
   0
             FY 00                FY 01                 FY 02                FY 03                FY 04             FY 05

                                      Legal Source           Illegal Source           Narcotics-Related

Source: The CI function’s analysis of the CIMIS.




                                                                                                                                     Page 34
                      Statistical Portrayal of the Criminal Investigation Function’s
                        Enforcement Activities From Fiscal Year 2000 Through
                                             Fiscal Year 2005



Figure 30: Percentage of Investigations That Received Publicity Each Fiscal Year by
Compliance Strategy Program.
  100.0%




                                                                                                                           %
   90.0%




                                                                                                                   %
                                                                                                        %




                                                                                                                         .8
                                                                                                                 .6
                                                                                      %
                                                                   %




                                                                                                      .1




                                                                                                                       81
                                                                                                %




                                                                                                               77
                                                                                    .7
                                                                 .1




                                                                                                    78
                                                                             %
   80.0%




                                                                                              .0
                                                                                  77
                                             %




                                                               76




                                                                           .9




                                                                                            71
                                                         %
                                           .5




                                                                         67
                                                       .8
   70.0%                                 64
                             %




                                                                                                                             %
                                                                     %
                                                     62
                                     %




                                                                                        %
                           .5




                                                                                                                           .7
                                                                   .0




                                                                                                           %
                                   .6




                                                                                      .0
                         59




                                                                                                                         59
                %




                                                                 57




                                                                                                         .8
                        %

                                 54




   60.0%




                                                                                    56
              .6




                                                                                                       55
                                                 %
                      .1
            49




                                               .1
                    49




                                             48

   50.0%
   40.0%
   30.0%
   20.0%
   10.0%
    0.0%
                FY 00                FY 01               FY 02                FY 03             FY 04              FY 05

                                          Legal Source       Illegal Source      Narcotics-Related

Source: The CI function’s analysis of the CIMIS.

Figure 31: Number of Paper and Electronic Returns Determined to Be Fraudulent or
Potentially Fraudulent by the Criminal Investigation Function’s Questionable Refund
Program. PY refers to Processing Year.




                                                                                                                        28
  80,000




                                                                                                                      ,5
                                                                                                                    74
                                                                                                                   26
                                                                                                 64




  70,000
                                                                                                01



                                                                                                                 ,5
                                                                                               ,1


                                                                                              ,7
                                                                                       39




                                                                                                               57
                                                                                             57


                                                                                            60




  60,000
                                                                                     ,3
                                                          20




                                                                                   56
                                                                             14
                                                        ,7
                                                      44




  50,000
                                                                           ,6
                                                                   66


                                                                         40
                                                                 ,7
                                                               36




  40,000
                 03




                                     83
               ,4
             25




                                               63
                                   ,1




  30,000
                                 21



                                             ,6
                                           17




  20,000
                          2
                        78
                      9,




  10,000
        0
                PY 00                PY 01               PY 02                PY 03            PY 04              PY 05

                                                 Paper Returns           Electronic Returns

Source: The CI function’s Office of Refund Crimes.




                                                                                                                           Page 35
                    Statistical Portrayal of the Criminal Investigation Function’s
                      Enforcement Activities From Fiscal Year 2000 Through
                                           Fiscal Year 2005



Figure 32: Dollar Amounts of Fraudulent Refunds Identified and Stopped by the Criminal
Investigation Function’s Questionable Refund Program. PY 2000 includes a refund fraud
scheme involving 1,672 tax returns with over $215 million in false refunds claimed, over
$214 million of which were stopped. PY 2004 figures do not include 2 returns that claimed
refunds of over $1.8 billion.
   $900,000,000
   $800,000,000
   $700,000,000
   $600,000,000
   $500,000,000
   $400,000,000
   $300,000,000
   $200,000,000
   $100,000,000
               $0
                       PY 00         PY 01        PY 02      PY 03      PY 04   PY 05

                                          Refunds Claimed   Refunds Stopped

 Source: The CI function’s Office of Refund Crimes.




                                                                                        Page 36
       Statistical Portrayal of the Criminal Investigation Function’s
         Enforcement Activities From Fiscal Year 2000 Through
                              Fiscal Year 2005



                                                          Appendix VI

Management’s Response to the Discussion Draft
                  Report




                                                                 Page 37
Statistical Portrayal of the Criminal Investigation Function’s
  Enforcement Activities From Fiscal Year 2000 Through
                       Fiscal Year 2005




                                                          Page 38
Statistical Portrayal of the Criminal Investigation Function’s
  Enforcement Activities From Fiscal Year 2000 Through
                       Fiscal Year 2005




                                                          Page 39
Statistical Portrayal of the Criminal Investigation Function’s
  Enforcement Activities From Fiscal Year 2000 Through
                       Fiscal Year 2005




                                                          Page 40
Statistical Portrayal of the Criminal Investigation Function’s
  Enforcement Activities From Fiscal Year 2000 Through
                       Fiscal Year 2005




                                                          Page 41
Statistical Portrayal of the Criminal Investigation Function’s
  Enforcement Activities From Fiscal Year 2000 Through
                       Fiscal Year 2005




                                                          Page 42
Statistical Portrayal of the Criminal Investigation Function’s
  Enforcement Activities From Fiscal Year 2000 Through
                       Fiscal Year 2005




                                                          Page 43
